HHS/OIG, Audit -"Audit of Blue Cross Blue Shield of Tennessee's Unfunded Pension Costs,"(A-07-04-00165)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Blue Cross Blue Shield of Tennessee's Unfunded Pension Costs," (A-07-04-00165)
October 4, 2004
Complete
Text of Report is available in PDF format (309 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine if Blue Cross Blue Shield of
Tennessees prior unfunded pension costs had been properly accounted for; whether
Tennessee funded pension costs in accordance with Federal Acquisition Regulations
for plan years 1994 and 1995; and to identify any unallowable parts of the
accumulated unfunded pension costs.  We found that Tennessee had properly
accounted for the unfunded pension costs identified in our prior review.  As
such, Tennessee should identify unallowable unfunded pension costs for the
Medicare segment of $173,669 and unallowable unfunded pension costs for the
Other segment of $1,402,939.  Additionally, Tennessee should establish
procedures to update annually the unallowable components of unfunded pension
costs for both the Medicare and Other segments.  Tennessee agreed with
our recommendations.